   Office of Inspector General
        Audit Report

  FHWA HAS OPPORTUNITIES TO IMPROVE
OVERSIGHT OF ARRA HIGH DOLLAR PROJECTS
 AND THE FEDERAL-AID HIGHWAY PROGRAM
        Federal Highway Administration
         Report Number: MH-2013-012
        Date Issued: November 14, 2012
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FHWA Has                                         Date:    November 14, 2012
           Opportunities To Improve Oversight
           of ARRA High Dollar Projects
           and the Federal-Aid Highway Program
           Federal Highway Administration
           Report Number MH-2013-012

  From:    Joseph W. Comé                                        Reply to
                                                                 Attn. of:   JA-40
           Assistant Inspector General for
             Highway and Transit Audits

    To:    Federal Highway Administrator

           The Federal Highway Administration (FHWA) is responsible for overseeing
           $27.5 billion in funding provided by the American Recovery and Reinvestment
           Act of 2009 (ARRA). 1 Those funds have been committed to nearly
           13,000 infrastructure projects, ranging from relatively simple paving projects to
           more complex highway and bridge construction. ARRA established tight deadlines
           for distributing ARRA highway funds and added new accountability and
           transparency requirements. The Department of Transportation made a commitment
           to ensure that all projects meet ARRA timeframes, Federal requirements, and
           legislative goals.

           As part of our ARRA oversight, we initiated an audit of selected FHWA high
           dollar ARRA projects, which we defined as bridge and highway projects receiving
           at least $20 million and $25 million, respectively, in ARRA highway
           infrastructure investment grants. In June 2010, we issued an advisory to the
           Department alerting it that States were not conducting required value engineering
           (VE) studies. Accordingly, our work focused on identifying significant issues that
           could impact FHWA’s effective oversight of ARRA. As such, we are reporting on
           whether (1) projects conducted required VE studies and (2) ARRA funds were
           obligated based on the States’ best estimate of cost.


           1
               Pub. L. No. 111-5 (2009).
                                                                                                                 2


To conduct our audit, we identified 130 ARRA projects that met our high dollar
threshold. We assessed 32 of these projects in 21 States and Washington, DC, for
compliance with VE and other key Federal requirements. 2 We also assessed
FHWA’s plans to meet the September 30, 2010, deadline for obligating ARRA
funds and FHWA’s oversight of States’ cost estimating practices when obligating
ARRA. We interviewed FHWA, State, and local officials and consultants and
contractors; reviewed relevant laws and FHWA regulations, policies, and
guidance; and examined project documents.

We conducted this performance audit between January 2010 and July 2012 in
accordance with generally accepted Government auditing standards. Exhibit A
provides a detailed description of our objective, scope, and methodology,
including the statistical projections used in the report. It also notes related work
initiated in conjunction with this project. Exhibit B lists the States and projects we
reviewed, and exhibit C lists the projects for which States and Washington, DC,
did not conduct a VE study.

RESULTS IN BRIEF
One-third of the States in our review did not perform VE studies during the project
planning or design phase for at least one ARRA project. 3 Specifically, we found
that, in 32 projects we reviewed, 10 projects in 7 States and Washington, DC, did
not undergo federally required VE studies during planning or design. Based on our
statistical sample and analysis, we estimate that FHWA missed opportunities to
maximize ARRA investments by about $82 million because it did not ensure
States conducted all required VE studies. 4 While we recognize that estimates of
savings resulting from VE studies may vary, improvements in the States’
compliance with VE requirements could yield significant future savings for the
Federal-aid highway program. We first alerted FHWA of these concerns in a June
2010 ARRA advisory. 5 FHWA took prompt actions during our audit to address
our concerns, such as revising its VE regulation and policy to include the dollar
threshold for conducting VE studies on bridge projects. FHWA now faces a
challenge in ensuring that States effectively and fully implement the new
VE regulations that were finalized in March 2012.

2
  We performed a comprehensive review of applicable requirements in 14 of the 32 projects.
3
  Federal law required a VE study during the planning or design phase on any Federal-aid highway project on the
National Highway System with an estimated total cost (including Federal, State, and local funds) of $25 million or
more. VE is also required for all FHWA-funded bridge projects with estimated total costs of $20 million or more.
4
  Individual VE studies may not yield dollar savings recommendations. Our estimate was based on 18 projects sampled
from a 110-project universe that received under $100 million in ARRA funds, resulting in a 90-percent confidence
interval ranging from $25 million to $139 million. See exhibit A of this report for a detailed discussion on how we
arrived at this estimate.
5
   OIG ARRA Advisory AA-2010-001, “FHWA’s Oversight of the Use of Value Engineering Studies on ARRA
Highway and Bridge Projects,” June 28, 2010. OIG reports and advisories are available on our Web site:
www.oig.dot.gov.
                                                                                                                3


FHWA did not consistently emphasize its cost estimating guidelines designed to
help ensure States obligate funds for projects based on best estimates of project
costs, increasing the likelihood of overestimated costs and the potential that ARRA
funds will go unused when ARRA concludes. Shortly after ARRA’s enactment,
the Department reported that States routinely received low bids ranging from
10 percent to 30 percent below the States’ engineering estimates. A year later, in
16 of 17 ARRA projects we reviewed in 8 States and Washington, DC, for cost
estimates, the winning construction contract bids came in below the engineering
estimates—by an average of 18 percent, and in one case by as much as 41 percent.
One factor that may have contributed to these low bids is that project estimates
may not have reflected current market conditions, which had changed dramatically
due to the economic downturn. Officials in only three of nine Division Offices we
visited said they performed an analysis recommended by FHWA’s cost estimating
guidelines to ensure sound estimates. Accurate estimates were especially important
after September 30, 2010, as ARRA no longer permitted States to re-obligate
ARRA funds to new projects. With very limited exceptions, bid savings realized
from the differences between estimates and contract award amounts occurring
after this final obligation deadline will have to be returned to the U.S. Treasury,
and will not be available for ARRA highway infrastructure improvement projects. 6
FHWA now faces the challenge to aggressively monitor ARRA obligations for
any unused or idle funds that result from overestimating or other occurrences, such
as reducing the scope of a project, and then to make certain that the States re-
obligate or return ARRA funds before they expire in 2015.

We are recommending actions for FHWA to improve its oversight of high dollar
ARRA projects and to address the issues raised in our earlier ARRA VE advisory.

BACKGROUND

FHWA, States, and local public agencies overseeing and administering ARRA
projects must adhere to 23 United States Code (U.S.C.) and 49 U.S.C. While
Federal law requires FHWA and a State to enter into an agreement documenting
the extent to which the State assumes FHWA responsibilities, FHWA is ultimately
accountable for ensuring projects meet Federal requirements.

According to 23 U.S.C., States are required to submit a formal project agreement
for each proposed Federal-aid project. FHWA’s approval of the agreement creates
an obligation of Federal funds. 7 However, before executing the agreement, FHWA
must ensure that the State has met all applicable prerequisite requirements of

6
  FHWA plans to re-obligate $25 million per year in recovered ARRA funds for allowable project cost overruns until
September 30, 2015, when ARRA funds expire and must be returned to the U.S. Treasury.
7
  An obligation denotes that FHWA has formally committed Federal funds to the project.
                                                                                                                      4


Federal laws and implementing regulations. For instance, one prerequisite requires
the State to include the proposed project in its relevant Metropolitan
Transportation Improvement Program (TIP) or Statewide Transportation
Improvement Program (STIP)—each of which outlines and prioritizes all State
infrastructure projects. The State’s request to obligate Federal funds for a
particular project must be supported by its best estimate of project costs.

According to FHWA’s guidelines, which are not mandatory, a State’s estimate of
project costs should be within 10 percent of the low bid for at least 50 percent of
all projects. 8 If a State is not achieving this degree of accuracy over a period of
time, such as 1 year, FHWA’s reliance on the State’s estimates may decline.
Further, if a State overestimates project costs, Federal funds, which could be used
for other projects, unnecessarily remain unused for an extended time. Conversely,
underestimating may not provide enough funding to a project, which can cause
delays while a State arranges for additional funding.

FHWA met ARRA’s statutory timeframes for distributing ARRA funds and took
steps to increase its oversight. For example, FHWA created national review teams
to independently assess States’ management of ARRA funds, used “Program
Accountability and Results Reviews” to assess project risks, and implemented a
checklist to assist Division Offices in their evaluation of the completeness of
project documents before construction authorization.

FHWA OVERSIGHT DID NOT FULLY ENSURE PROJECTS
COMPLIED WITH FEDERAL REQUIREMENTS FOR VALUE
ENGINEERING STUDIES
FHWA did not always ensure States complied with the requirement to perform VE
studies during a project’s planning or design phase. By not ensuring States
conducted all required VE studies, FHWA lost opportunities to maximize ARRA
investments. 9 Furthermore, while FHWA took some corrective actions after we
issued an ARRA advisory in June 2010, oversight vulnerabilities remain, such as
ensuring States effectively and fully carry out VE requirements.




8
  FHWA’s “Guidelines on Preparing Engineer’s Estimate, Bid Reviews and Evaluation,” January 20, 2004.
9
  Not all VE studies result in cost savings. In general, a VE analysis is conducted to provide recommendations
regarding project safety, reliability, and efficiency; improve project value and quality; and reduce the time to complete
a project.
                                                                                                                      5


FHWA Missed the Opportunity To Maximize ARRA Funds by Not
Ensuring States Completed VE Studies
Of the 32 projects we reviewed for compliance with the VE requirement (of the
130 that met our high dollar threshold), 7 States and Washington, DC, did not
conduct VE studies for a total of 10 ARRA projects (see table 1). 10 The lack of a
VE study means there was no upfront independent analysis of a project to improve
its performance, reliability, quality, and safety, and to reduce its life-cycle costs.
States are required by law to conduct at least one VE study during the planning or
design phase for all FHWA-funded highway projects on the National Highway
System with an estimated cost of $25 million or more and all FHWA-funded
bridge projects with an estimated cost of $20 million or more.

Table 1. High Dollar ARRA Projects and Number of Projects
Reviewed for a VE Study in the Planning or Design Phase
                                                                     OIG VE Study                  Other Projects
                                                                      Statistical                   Reviewed for
High Dollar Projects                                 Total            Sample                        VE Study
                                                                          Without a                     Without a
                                                                    Total VE Study                Total VE Study
Receiving $100 Million or More in                         7            0          0                  3          0
ARRA Obligations
Receiving Less than $100 Million in                    121             18               5            10               5
ARRA Obligations
With Over 50 percent ARRA                                 2              0              0              1              0
Obligations Expended
Total                                                  130             18               5            14               5
Source: OIG and FHWA Financial Management Information System.

While we recognize that estimates of savings resulting from individual VE studies
may vary, based on the results of our statistical sample that included 18 of 110
high dollar projects receiving ARRA obligations under $100 million, we estimate
that FHWA missed the opportunity to make about $82 million in ARRA funding
available for other highway projects because FHWA did not make sure that States
completed all the required VE studies. 11 However, the financial impact of not
meeting all VE requirements may be higher, since our estimate was only for high
dollar projects receiving ARRA obligations under $100 million and did not
include all ARRA projects with total project costs that met or exceeded the VE
10
   On July 6, 2012, the Moving Ahead for Progress in the 21st Century Act (Pub. L. No. 112-141), changed the
requirement for providing VE studies to each National Highway System highway and bridge project with an estimated
total cost of $50 million and $40 million, respectively.
11
   We found that States did not conduct required VE studies for 5 of the 18 projects. We estimated an average of
7.4 percent VE savings based on the 18 projects in our sample and applied the percentage to the 5 projects in our
sample that did not have a required VE study in order to project to all projects that were estimated not to have a
required VE study out of the 110 projects in our universe. Exhibit A of this report provides details on how we arrived at
this estimate.
                                                                                  6


study threshold requirements. On December 5, 2011, FHWA provided our office
with its own review of the 119 projects we identified as high dollar, and identified
10 projects that did not undergo a State-led VE study. Using a 10-year historical
average of VE savings incurred on projects, FHWA estimated that the potential
lost savings was about $30 million for the 10 projects. While our approach used to
estimate the financial impact for this group of projects differed from FHWA, both
approaches show that improvements in the States’ compliance with VE
requirements could yield significant future savings for the Federal-aid highway
program.

FHWA Took Actions To Address Our ARRA Advisory, but VE
Oversight Challenges Remain
During our audit, FHWA took prompt actions to address our concerns reported in
our ARRA advisory—that States were not conducting all required VE studies.
Those actions included issuing revised VE regulations and policy. However,
challenges remain for improving VE oversight. Specifically:

• Federal highway regulations regarding VE requirements were out-of-date when
  we began our review in 2010. Officials responsible for VE oversight on one
  project stated that they did not perform the required VE study because they
  relied on Federal regulations that were not updated to include 2005 VE
  legislative changes. These statutory changes included the new requirement that
  bridge projects, with an estimated cost equal to or exceeding $20 million,
  undergo VE studies. FHWA issued a revised internal VE policy in May 25,
  2010, 12 and on March 15, 2012, issued revised VE regulations to reflect the
  changes enacted in 2005. 13 FHWA now faces a challenge in ensuring that
  States are aware of the revised Federal regulations, and begin to effectively and
  consistently implement them in a timely manner.

• In June 2010, we reported that most Stewardship and Oversight Agreements
  between the States and FHWA did not mention VE, cite the $20 million
  threshold for bridge VE studies, or correctly explain the bridge
  VE requirement. Our current review found that some States still did not
  mention VE or cite the VE requirements correctly. FHWA made a recent
  improvement in this area by revising its Stewardship and Oversight Agreement
  guidance in July 2011, to include the use of VE studies as an effective
  stewardship and oversight indicator. However, the revision does not specify




12
     FHWA’s “Updated FHWA Value Engineering (VE) Policy,” May 25, 2010.
13
     77 Code of Federal Regulations 15250 (March 15, 2012).
                                                                                                            7


     that the indicator must be included in Stewardship and Oversight
     Agreements. 14

• FHWA did not ensure that all States subsequently conducted VE studies for the
  projects identified in our June 2010 ARRA advisory as missing VE studies.
  According to FHWA, for maximum benefit, VE analysis should be conducted
  as early as practicable in the planning or design phase of a project. FHWA’s
  actions regarding two projects, involving the resurfacing of Connecticut’s
  Merritt Parkway, clearly demonstrate the potential value in carrying out a
  study, even during project construction. 15 After construction began, FHWA
  found that no VE study had been performed and requested one. The State
  conducted a joint VE study for both projects, which resulted in nearly
  $2 million in cost savings.

• Our review found that FHWA exempted a State from conducting VE studies
  on some projects by authorizing “waivers,” a practice that is not allowed under
  existing regulations. Specifically, FHWA’s Oklahoma Division Office waived
  VE requirements for three ARRA high dollar projects. Among other things, the
  Oklahoma Department of Transportation claimed that the restrictive scope and
  nature of the projects, and their immediacy, would not allow for any plan
  revisions. Consequently, the Division Office concurred that “it is in the public
  interest to waive the requirement to perform VE studies.”

Beyond ARRA, FHWA faces challenges in effectively and fully implementing the
final VE regulation and making VE studies a viable tool to reduce costs and
increase safety and quality on applicable federally funded projects. Responses to
FHWA’s June 22, 2011, Notice of Proposed FHWA Rulemaking, which resulted
in its March 2012 rule, still showed a broad range of States’ concerns regarding
the implementation of the requirement. These concerns include balancing the
States’ need for flexibility in conducting VE studies, determining what costs
trigger a VE study, and lack of adequate staffing to meet the requirement.




14
   FHWA’s April 14, 2006, “Federal-aid Highway Program Stewardship/Oversight Agreement Guidance” was in effect
when we started our review and was revised on July 1, 2011.
15
   Our ARRA advisory did not discuss the Connecticut Merritt Parkway.
                                                                                    8


FHWA DID NOT CONSISTENTLY EMPHASIZE ITS COST
ESTIMATING GUIDANCE AND FACES A CHALLENGE IN
MONITORING UNEXPENDED ARRA OBLIGATIONS
FHWA took steps to make certain that States met statutory deadlines for
committing or obligating ARRA funds; however, FHWA did not consistently
emphasize its cost estimating guidance designed to help ensure States obligate
funds for projects based on best estimates of project costs. Insufficient attention to
cost estimating increased the likelihood that States overestimated some project
costs, which could lead to leaving ARRA funds unexpended when ARRA
concludes. Expired funds would run counter to ARRA’s intent that States use the
funds to the fullest extent to spur economic activity.

States initially calculated ARRA project obligation amounts based on a project’s
engineering estimates. In early 2009, shortly after ARRA’s enactment, the
Department reported that States routinely received bids ranging from 10 percent to
30 percent below their engineering estimates. As required, States adjusted their
obligation amounts for projects after the winning contract bids came in lower than
expected, as many bids did. States could make these adjustments and re-obligate
the funds to additional projects only until the ARRA obligation deadline of
September 30, 2010. However, even as this deadline neared, we found a
continuing trend in States’ overestimating costs. Specifically, in 16 of 17 ARRA
projects, in 8 States and Washington, DC, the winning construction contract bids
came in below the engineering estimates—by an average of 18 percent, and in one
case by as much as 41 percent. 16

One reason for a pattern of estimates that exceeded winning bids is that FHWA did
not consistently emphasize the importance of using existing FHWA cost estimating
guidance. FHWA issued this guidance to its Division Offices to help them ensure
that States developed sound engineering estimates, which would minimize large
gaps between estimates and contract awards. FHWA guidance considers a State to
have credible estimates if the estimates are within plus or minus 10 percent of the
low bid for at least 50 percent of the projects awarded over a period of time, such
as 1 year. We did not assess States’ compliance with FHWA’s guidance, which is
not mandatory. However, only three of nine Division Offices we visited,
acknowledged performing such an analysis to determine whether States had met
FHWA’s cost estimating guidelines for credible estimates. According to FHWA,
considering the timeframes ARRA imposed to obligate funds, it actively worked
with the States to obligate funds and encouraged the use of best estimates. This
was done through conference calls with State counterparts, Division Offices’
interactions with the States, and discussions on a project-by-project basis. In

16
     Exhibit A of this report provides details on how we selected these projects.
                                                                                                                     9


August 2010, shortly before the deadline, FHWA Headquarters issued a
memorandum to remind the States of the deadline and in September 2010 urged
the States to research current costs compared to engineers’ estimates and revise
obligations to minimize the return of unused ARRA funds to the U.S. Treasury.

In our opinion, the economic downturn and resulting changes in construction
market conditions (i.e., a nationwide pattern of low bids) warranted greater FHWA
emphasis on the review and reassessment of the States’ engineering estimates.
Any bid savings, which States realize from the differences between estimates and
contract award amounts after the final obligation deadline, create the potential that
ARRA funds will go unused elsewhere because ARRA narrowly restricts how
these funds can be used. 17 By ARRA’s final obligation deadline, FHWA had
successfully obligated all ARRA highway infrastructure grants, but the States had
yet to award construction contracts for an estimated $1.5 billion in approved
ARRA project obligations. As a result, there is an increased likelihood that ARRA
funds will have to be returned to the U.S. Treasury after September 30, 2015;
thereby reducing funds available for ARRA highway infrastructure improvement
projects. With unexpended ARRA obligations still remaining, FHWA will face a
challenge in aggressively monitoring these obligations for any unused or idle
funds occurring as a result of overestimating or other occurrences, such as
reductions in the scope of a project, and making certain that the States re-obligate
or return ARRA funds before they expire in 2015.

CONCLUSION
FHWA is responsible for overseeing over $27 billion in ARRA funding for
highway and bridge projects across the Nation—in addition to the billions of
dollars FHWA is already responsible for overseeing under the Federal-aid
highway program. In responding to this large, rapid infusion of new highway
dollars, FHWA met the initial goals of ARRA by starting billions of dollars worth
of projects and obligating funds to meet tight statutory milestones. However,
FHWA has missed opportunities to maximize ARRA investments on high dollar
projects due to weaknesses in some States’ implementation of VE requirements
and cost estimating practices. The challenge for FHWA in the years to come is to
make certain effective oversight occurs on other high dollar ARRA projects that
have yet to be completed, and apply lessons learned from ARRA to strengthen the
oversight mechanisms used in the Federal-aid highway program.




17
  After September 30, 2010, any State ARRA funds FHWA recovers can be used only on an existing ARRA project
for costs related to legitimate cost overruns within the original scope of work and purpose associated with the project.
FHWA plans to re-obligate $25 million per year nationwide in recovered ARRA funds for cost overruns.
                                                                                10


RECOMMENDATIONS
We recommend that the Federal Highway Administrator:

1. Verify that required VE studies were conducted for all ARRA projects that
   were not identified in this report, or identify reasons for not conducting them.

2. Identify steps needed to increase States’ awareness of and compliance with
   FHWA’s new March 15, 2012, rule covering VE legislative changes and
   revised guidance contained in FHWA’s May 25, 2010, memorandum,
   “Updated FHWA Value Engineering Policy.”

3. Verify that Division Offices review each State’s procedures for estimating
   costs, including procedures to conduct periodic reviews and to address
   significant changes in market conditions.

4. Develop and implement a plan to make sure controls are in place to effectively
   manage remaining unexpended ARRA funds.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA with our draft report on July 12, 2012, and received its
response on October 18, 2012. FHWA’s response is included in its entirety as an
appendix to this report. In response to our recommendations, FHWA concurred
with recommendations 1 through 3 and concurred in part with recommendation 4.
Based on actions FHWA has taken and recent MAP-21 changes to
VE requirements, we consider recommendation 2 closed. We consider
recommendation 3 to be resolved but open pending receipt of the documentation
supporting the actions taken.

In its response, FHWA acknowledges that some projects did not include the
required VE analysis, but believes our estimate of $82 million in savings is
overstated based on its own review of the projects examined in our audit. The
exact financial impact of failing to conduct VE studies is difficult to precisely
estimate, and the approach we used to estimate lost opportunities for financial
savings differed from those of FHWA. In addition, the timing of our respective
reviews differed. For example, FHWA’s approach consisted of data compiled
from Division Offices, where our estimating approach included a statistical sample
and analysis of actual project documentation and excluded projects not on the
National Highway System. In those instances where FHWA policies were not
clear about whether a particular project should have conducted a VE study, such as
the three “off-the-shelf” projects referred to by FHWA in its response, we kept
them in our universe. Excluding these three projects would have only dropped our
                                                                                                               11


estimate slightly, reducing it to about $80 million. Regardless, it is important to
reiterate that improvements in the States’ compliance with VE requirements could
yield significant future savings for the Federal-aid highway program.

For recommendation 1, FHWA stated that it completed actions addressing this
recommendation and identified 10 projects where VE analyses were not
completed. We agree that it is no longer practical to conduct a VE study for these
projects and the other projects we identified in our report because the projects are
either mostly completed or in construction. Additionally, since we issued our
ARRA advisory on VE studies in June 2010, FHWA has worked proactively with
the States to correct the conditions we identified and to minimize the potential loss
in VE savings. Accordingly, we consider recommendation 1 to be closed.

Regarding recommendation 4, FHWA stated it has developed additional controls
to ensure that the States use ARRA funds timely and appropriately. We announced
audits on June 21, 2012, that will include reviews of FHWA’s oversight of
unexpended ARRA obligations. 18 As a result, we plan to close this
recommendation and will provide an assessment of these controls in a later report.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation Order
8000.1C, we request that FHWA provide documentation demonstrating
completion of recommendation 3 within 30 days after completion.

We appreciate the courtesies and cooperation of FHWA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366–5630 or David Pouliott, Program Director, at (202) 366–1844.

                                                        #

cc: DOT Audit Liaison, M–1




18
   The two audits will review FHWA’s oversight of unexpended ARRA obligations. The first audit will (1) assess
FHWA’s controls for monitoring unexpended ARRA obligations and (2) identify unexpended ARRA funds at risk of
not being expended before final deadlines. The second audit will determine whether FHWA’s policies, procedures, and
management activities result in the prompt and appropriate use or return of unexpended ARRA funds.
                                                                                                     12




EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our audit objective was to assess whether FHWA’s oversight of high dollar
ARRA projects resulted in compliance with Federal requirements for cost, quality,
and construction scheduling. The focus of our audit was not to provide an overall
assurance that FHWA met all requirements, but to identify trends, issues, or
challenges that affected FHWA’s oversight of ARRA. As a result we are reporting
specifically on whether (1) projects conducted required VE studies and (2) ARRA
funds were obligated based on the States’ best estimate of cost. For the purpose of
our review, we defined high dollar projects as highway infrastructure investment
grant projects that FHWA categorized as highway or bridge projects receiving a
total ARRA obligation equal to or greater than $25 million and $20 million,
respectively. We did not include in our review the U.S. territories of the Virgin
Islands, Guam, American Samoa, or the Northern Mariana Islands.

To conduct our audit, we reviewed a total of 32 projects for various requirements
(see table 2 below) and monitored other ARRA actions. We did not review all
selected Federal requirements for each project because the projects we selected for
review were in various stages of development, and we adjusted our review to
integrate emerging issues. For example, during our review, we added assessments
of FHWA’s plans to meet the September 30, 2010, deadline to obligate ARRA
funds and FHWA’s oversight of States’ cost estimating practices when obligating
ARRA funds, and assessed these issue areas in 17 projects we had not finished
reviewing at the time.

Table 2. High Dollar ARRA Highway and Bridge Projects
Reviewed
Area Reviewed                     Projects     Location
Comprehensive Review of                  14    California, District of Columbia, Florida, New
Applicable Requirements*                       Jersey, North Carolina, Ohio, Pennsylvania,
                                               Virginia
VE Studies During Planning               32    Alaska, Arizona, California, Colorado, Connecticut,
or Design Phase                                District of Columbia, Florida, Idaho, Louisiana,
                                               Massachusetts, Michigan, Minnesota, Mississippi,
                                               New Jersey, New York, Nevada, North Carolina,
                                               Ohio, Oklahoma, Pennsylvania, Virginia
States’ Engineering Estimates            17    Arizona, California, District of Columbia, Florida,
Versus Winning Contract Bids                   New Jersey, North Carolina, Ohio, Pennsylvania,
                                               Virginia

Source: OIG
*Applicable requirements varied depending on the type of project and stage of development.




Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                                  13


As a result of our work, we announced additional audits. For some of the projects
we reviewed, FHWA had assumed “full oversight” responsibilities—that is, it
performs certain project responsibilities, such as project approval of design, plans,
and specifications. We reviewed two ARRA bridge projects that experienced
delays in construction that FHWA retained full oversight responsibility for—the
I-4 Connector to the Lee Roy Selmon Expressway Interchange project in Tampa,
Florida, and the New York Avenue Bridge project in Washington, DC,—and
assessed the reasons behind the delays. As a result of our assessment, we initiated
two audits that could impact how ARRA funds are used or accounted for over the
next few years and the Federal-aid highway program in general. The two audits
are: “Federal Highway Administration’s Full Oversight Activities During ARRA
Construction,” which we announced on May 17, 2011, and “Improvements to
Stewardship and Oversight Agreements Are Needed To Enhance Federal-aid
Highway Program Management,” which we issued on October 1, 2012. 19
Furthermore, as a result of the challenge we identified in this report regarding the
monitoring of unexpended ARRA obligations, we announced two audits on June
21, 2012, covering “FHWA’s Oversight of Unexpended ARRA Obligations.” The
audit announcement and the report are available on our Web site at
www.oig.dot.gov.

In total, our review encompassed 130 high dollar ARRA projects we identified as
meeting our threshold. We began by identifying a universe of 128 high dollar
ARRA projects, extracted from FHWA’s Weekly List of FHWA Recovery Act
Projects, as of January 29, 2010, which was the best information available at the
time of our review. We selected for our review two additional projects that came
to our attention during our audit work. To accomplish our audit objectives, we first
selected, from the universe of 128 high dollar ARRA projects we identified, the
project with the highest amount of obligations from one of two projects with an
ARRA expenditure rate of more than 50 percent. We considered these projects
separately from the others because their high expenditure rates warranted
additional attention. Second, we selected three of seven ARRA projects with
$100 million or more in ARRA funding obligations because their high estimated
total cost warranted additional Federal oversight. We also selected the three
projects based on their proximity to other projects selected for our review. Finally,
we stratified the remaining universe of 119 projects receiving under $100 million
in ARRA funding obligations into 7 strata according to our investigative regions
and selected a probability proportional to a project obligations sample of
20 projects with replacement. Replacement means that every sample selection was
made from the entire universe of projects in order to keep the sampling weights
the same on every trial. One of the projects in Oklahoma was selected twice,
which reduced the actual sample size to 19 unique projects.

19
     OIG Report MH-2013-001.


Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                                 14


During our audit, we found that 9 highway projects in our 119 project universe
were not on the National Highway System and, therefore, were not required to
have a VE study. This reduced our universe from 119 to 110 projects and our
sample size from 19 to 18. To calculate our estimate of $82 million of ARRA
funding that could have been made available if projects had conducted the
required VE studies, we took the following steps. We:

(1) Estimated the value of accepted recommendations for the 110 projects in our
    universe by using the values for 10 of the 18 sampled projects, 0 for the
    3 sampled projects that had VE studies that did not results in any savings, and
    0 for the 5 sampled projects that did not have a required VE study. (To provide
    a conservative estimate, we used zero for projects that did not have a required
    VE study, thereby reducing the estimated savings percentage achieved.)

(2) Computed the sampling error and 90 percent lower and upper confidence
    limits.

(3) Divided the estimated value of accepted recommendations in the universe of
    110 projects by the total ARRA obligations for the 110 projects in the universe
    to arrive at a 7.4 percent savings.

(4) Repeated Step 3 for the 90 percent lower and upper confidence limits to arrive
    at the 2.3 percent lower confidence limit and the 12.5 percent upper confidence
    limit savings range.

(5) Multiplied the 7.4 percent savings by the total obligation amount (including all
    funding sources, not just ARRA) as of June 23, 2011. For the 5 projects in our
    sample that did not have a required VE study, used 0 for all other 13 sampled
    projects. (Again, to provide a conservative estimate, we used 0 for the
    13 projects.)

(6) Projected the amounts to the universe of 110 projects to arrive at the best
    estimate for the total amount of funding that could have been made available.

(7) Repeated Step 5 using the 2.3 percent lower and the 12.5 percent upper
    confidence limit savings.

(8) Repeated Step 6 to arrive at the lower and upper 90 percent confidence limit
    amounts of obligations that could have been made available.

(9) Computed the ARRA funding percentage (88.6 percent) by dividing the ARRA
    amount obligated by the total amount obligated as of June 23, 2011. Multiplied
    the best estimate, the lower confidence limit, and the upper confidence limit by
    the ARRA funding percentage to arrive at the amount of ARRA funding that
    could have been made available.

Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                             15


During this current review, we interviewed FHWA, State, and local officials and
consultants and contractors; reviewed relevant laws and FHWA regulations,
policies, and guidance; and examined project documents. Finally, we obtained
technical support from our engineering and legal staff.

We conducted this performance audit from January 2010 through July 2012 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.




Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                                           16




EXHIBIT B. PROJECTS REVIEWED

ARRA
Award
Number     State           City           Project Description
 0A41022   Alaska          Matanuska-     Rehabilitation of Parks Highway between Willow
                           Susitna        Creek and the Kashwitna River.
                           Borough
 010B205   Arizona         Phoenix        Reconfigure and reconstruct I-10 interchange.
 010C203   Arizona         Phoenix        I-10 widening from I-8 to SR 87.
 0103101   California      San            I-10 extension and interchange.
                           Bernardino
 4053015   California      Los Angeles    I-405 widening from I-10 to US-101 for HOV lane.
 P024030   California      Oakland        SR 24 two-lane tunnel, north of existing Caldecott
                                          tunnels.
 P076024   California      San Diego      SR 76 construction of four-lane highway.
 Q101153   California      Oakland        Route 101 pavement reconstruction.
 C010101   Colorado        Denver         Reconstruction, widening of Alameda Bridge over
                                          I-25.
 0150194   Connecticut     Trumbull       Route 15 resurfacing, bridge, and safety
                                          improvements.
ARRA001    Florida         Fort Walton    SR 85 flyover ramp.
                           Beach
ARRA279    Florida         Tampa-St.      New toll road connecting I-4 to Selmon
                           Petersburg-    Expressway.
                           Clearwater
ARRA280    Florida         Tampa-St.      Two interchanges on U.S. 19.
                           Petersburg-
                           Clearwater
ARRA549    Florida         Jacksonville   SR 9B four-lane highway.
 A001222   Idaho           Dover          U.S. 95 Dover Bridge replacement.
 1709503   Louisiana       Baton Rouge    I-10 widening from four to six lanes.
 001S899   Massachusetts   Fall River     Interchange construction of Route 24.
 1038005   Michigan        Lansing        I-94 reconstruction.
 09ES136   Minnesota       Maple Grove    State Highway 610 construction.
 0261076   Mississippi     Collinsville   Additional lanes SR 19 between SR 492 and the
                                          Lauderdale County Line.
 0952054   Nevada          North Las      U.S. 95 asphalt overlay.
                           Vegas
 2952123   New Jersey      Gloucester     I-295 rehabilitation, including replacement of
                                          bridge decks, pavement, and guard rails.


Exhibit B. Pr ojects Review ed
                                                                                                  17


ARRA
Award
Number       State              City             Project Description
  0007109    New Jersey         Ocean City       Route 52 causeway.
 XM09063     New York           Albany           Painting of viaduct and ramps along southbound
                                                 Bruckner Expressway.
  0100017    North Carolina     Fayetteville     Grading and bridge construction along future
                                                 I-295 outer loop.
 E090688     Ohio               Nelsonville      U.S. 33 corridor 9-mile upgrade.
 STIM015     Oklahoma           El Reno          I-40 rehabilitation from mile marker 132 to mile
                                                 marker 136.
 STIM001     Oklahoma           Muskogee         I-40 rehabilitation from mile marker 281.67 to
                                                 mile marker 288.22.
 STIM048     Oklahoma           Tulsa            I-244 reconstruction from U.S. 75 interchange to
                                                 U.S. 64 interchange.
  Z065102    Pennsylvania       Philadelphia     Preservation Girard Point Bridge.
 FS09065     Virginia           Danville         Improvement of Piedmont Drive and replacement
                                                 of Robertson bridge.
  1108027    Washington         District of      Reconstruction of the existing New York Avenue
                                Columbia         Bridge.

Sources: OIG analysis and data from www.recovery.gov Web site.




Exhibit B. Pr ojects Review ed
                                                                                                         18



EXHIBIT C. PROJECTS WITHOUT A VE STUDY IN PLANNING OR
DESIGN PHASE
    ARRA                                                                                            ARRA
    Award                                                                                        Funding
                                                                                                          a
    Number        State            Project Description                                         (Millions)
    0A41022       Alaska           Rehabilitation of Parks Highway between Willow
                                                                                                     $25.2
                                   Creek and the Kashwitna River.
    010C203       Arizona          I-10 widening from I-8 to SR 87.                                  $40.7
                               b
    0150194       Connecticut      Route 15 resurfacing, bridge, and safety
                                                                                                     $39.3
                                   improvements.
    A001222       Idaho            U.S. 95 Dover Bridge replacement.                                 $28.9
    2952123       New Jersey       I-295 rehabilitation, including replacement of
                                                                                                     $78.8
                                   bridge decks, pavement, and guard rails.
    XM09063       New York         Painting of viaduct and ramps along southbound
                                                                                                     $20.0
                                   Bruckner Expressway.
    STIM015       Oklahoma         I-40 rehabilitation from mile marker 132 to mile
                                                                                                     $30.0
                                   marker 136.
    STIM001       Oklahoma         I-40 from mile marker 281.67 to mile marker
                                                                                                     $27.2
                                   288.22.
    STIM048       Oklahoma         I-244 reconstruction from U.S. 75 interchange to
                                                                                                     $20.6
                                   U.S. 64 interchange.
    1108027       Washington,      Reconstruction of the existing New York Avenue
                                                                                                     $25.8
                  DC               Bridge.

Sources: OIG analysis, FHWA data, and www.recovery.gov Web site.
a
    ARRA funding levels are as of June 17, 2011, and may not represent total project costs or total Federal
    funding on all projects.
b
    The Connecticut Merritt Parkway project did not have a VE study during the design or planning phase as
    required. As discussed in the report, a VE study was conducted after construction began at the request of
    FHWA’s Connecticut Division Office.




Exhibit C. Pr ojects Without a VE Study in Planning or Design Phase
                                                      19




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                              Title

David Pouliott                    Program Director

Lorretta Swanson                  Project Manager

Stephen Gruner                    Project Manager

Michael Masoudian                 Senior Analyst

Rodolfo Perez                     Engineer Advisor

Anne-Marie Joseph                 Senior Engineer

Jeffrey Ong                       Senior Auditor

Arthur Jacobs                     Analyst

Daniel Ben-Zadok                  Analyst

Fritz Swartzbaugh                 Associate Counsel

Petra Swartzlander                Statistician

Megha Joshipura                   Statistician

Harriet E. Lambert                Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                   20


           APPENDIX. AGENCY COMMENTS


                                                   Memorandum
Subject:                                                                  Date: October 18, 2012
           INFORMATION: Federal Highway
           Administration Response to Office of
           Inspector General (OIG) Draft Report on
           High Dollar Recovery Act Highway
           Projects (10U3008M000)

  From: Victor M. Mendez
        Administrator                                                              In Reply Refer To:
                                                                                            HIF/HCF
    To: Calvin L. Scovel III
        Inspector General (J-1)

           From the outset of the American Recovery and Reinvestment Act of 2009 (Recovery Act),
           the Federal Highway Administration (FHWA) carried out its stewardship and oversight
           responsibilities with a focus on compliance with existing and new requirements. As a
           direct result of the Recovery Act, 43,400 miles of roads have been repaved, 2,723 bridges
           improved, and tens of thousands of jobs were created or saved.

           Recovery Act Projects Complied with Value Engineering Requirements

           In the context of Recovery Act implementation, it is important to recognize that some
           projects pulled off the shelf did not meet the value engineering (VE) thresholds at the
           design phase and did not require a VE analysis. Therefore, the OIG draft report’s estimate
           of savings of $82 million that could have been redirected at other projects is hugely
           overstated. The FHWA reviewed in detail the 119 Recovery Act projects the OIG initially
           identified as requiring a VE analysis and confirmed the vast majority of projects fully
           complied with VE requirements. As a result, we strongly disagree with the OIG’s
           assertion that $82 million could have been saved and redirected to other projects.
           Specifically, FHWA determined that 109 of the total 119 projects, or 92 percent of these
           projects, either conducted the required VE analysis or a VE analysis was not required
           because the projects were 1) not located on the National Highway System or 2) were
           below the monetary threshold of projects requiring a VE analysis. Only 10 of the 119
           projects did not include the required VE analysis. By including projects that did not
           actually require a VE analysis in the statistical calculation, the projection of estimated
           savings cited in the OIG draft report is therefore flawed. We have made significant
           improvements in the VE program over the years working with State Departments of
           Transportation, the OIG, and other entities, and FHWA is fully committed to continuing
           to provide strong oversight of State DOT’s VE programs, which have resulted in annual
           cost savings of $1.7 billion on average from fiscal years 2002 through 2011.

           Appendix. Agency Comments
                                                                                           21


FHWA Fully and Expeditiously Applied Recovery Act Funds

The FHWA provided effective leadership for the full deployment and utilization of
Recovery Act funds. Cost estimates are an important tool for establishing the basis for key
project decisions, establishing metrics against which project success will be measured, and
communicating the status of a project at any given point in time. Bids that came in below
engineer estimates enabled States to obligate Recovery Act funds for additional projects.
The FHWA encouraged the States to make the fullest possible use of Recovery Act funds
to gain maximum benefit, and these funds have been redeployed to the extent allowed by
law.

Recovery Act funds, by statute, were to be spent within the context of existing programs,
which have established internal controls. The FHWA used its proven systems for
programmatic controls to ensure Recovery Act funds were used appropriately. Controls
include, for example, FHWA’s approval of States’ Plans, Specifications, and Estimates
(PS&E) packages, in accordance with policies and guidance, before funds are obligated.
Approval of PS&E packages enables FHWA to monitor States’ cost estimating practices,
including major projects estimated at $500 million or greater. In an effort to further
enhance project cost estimating practices, FHWA initiated work with the American
Association of State Highway and Transportation Officials’ (AASHTO) Technical
Committee on Cost Estimating to update AASHTO’s “Practical Guide to Estimating.”
The guide will identify States’ estimating best practices and offer guidance on improving
project cost estimates.

In addition, throughout the implementation of the Recovery Act, FHWA actively worked
to identify and manage risks. As documented in FHWA's Recovery Act Risk
Management Plan, the National Review Team (NRT), consisting of a multidisciplinary
team of experts, provided additional accountability and national consistency for Recovery
Act implementation. The NRT validated FHWA's existing Recovery Act risks, identified
emergent risks during Recovery Act implementation, and described strategies needed to
respond to these risks, including PS&E monitoring. Over the course of FHWA’s
Recovery Act oversight efforts, the NRT conducted 232 site visits, independently touching
more than 1,400 projects.

FHWA Increased Awareness and Application of Value Engineering

Value engineering is one of numerous Federal requirements that FHWA oversees to
ensure States' compliance in the delivery of the Federal-aid highway program (FAHP) and
to improve the performance and quality of transportation projects, including those funded
by the Recovery Act. The successful application of the VE process contributes
measurable benefits to the quality and cost-effectiveness of surface transportation
improvement projects and to the effective delivery of the overall FAHP.

The purpose of VE is to provide the needed functions safely, reliably, efficiently, and at
the lowest overall cost; improve the value and quality of the project; and reduce the time
to complete the project. While reducing project costs is one purpose of conducting a VE
analysis, it is not intended solely to reduce project costs at the construction stage. The VE


Appendix. Agency Comments
                                                                                               22


analysis considers the lifetime cost of the project; implications on the users of the facility,
the environment, and stakeholders; time to complete; safety; reliability; and future
maintenance. In some cases, a VE analysis may result in an increase in the initial cost but
provide greater long-term value.

The Moving Ahead for Progress in the 21st Century Act (MAP-21) doubled the threshold
for projects requiring a VE analysis, as well as removed the requirement for conducting a
VE analysis for non-National Highway System bridge projects and for projects using the
design-build method of construction. In light of these legislative changes, which became
effective October 1, 2012, FHWA has identified needed regulatory changes and will
update FHWA’s VE policy to reflect these changes accordingly.

OIG Recommendations and FHWA Actions

Recommendation 1: Verify that required VE studies were conducted for all Recovery
Act projects that were not identified in this report, or identify reasons for not conducting
them.

Response: Concur. FHWA reviewed all 119 projects the OIG identified as part of their
audit to determine if VE studies were required, and if so, if they were conducted. FHWA
verified 109 of these 119 projects either conducted the required VE analysis or did not
require a VE analysis because they were not located on the National Highway System or
the cost of the project was below the threshold to require a VE analysis. The FHWA
identified 10 projects that did not have the required VE analysis and determined the
reasons States did not conduct a VE analysis on those projects. Action pursuant to this
recommendation is complete and results of FHWA’s review have been provided to the
OIG. We request the OIG close this recommendation upon receipt of this request.

Recommendation 2: Identify steps needed to increase States' awareness of and
compliance with FHWA's new March 15, 2012, rule covering VE legislative changes and
revised guidance contained in FHWA's May 25, 2010, memorandum, "Updated FHWA
Value Engineering Policy."

Response: Concur. FHWA has conducted extensive outreach to raise the highway
industry’s awareness of the changes impacting VE that have occurred in legislation and
guidance. These outreach activities have focused on the staff of State Departments of
Transportation, Local Public Agencies, engineering consulting firms, construction
companies, and FHWA. These outreach activities have included delivering presentations
and briefings, conducting webinars, updating training materials, developing technical
guidance and outreach materials, and updating information on FHWA’s Web site. Based
on FHWA already having completed the work necessary to satisfy this recommendation
and based on documentation provided, we request the OIG close this recommendation
upon receipt of this request.

Recommendation 3: Verify that Division Offices review each State's procedures for
estimating costs, including procedures to conduct periodic reviews and to address
significant changes in market conditions.


Appendix. Agency Comments
                                                                                          23



Response: Concur. FHWA is currently working with AASHTO on the publication of an
update to AASHTO’s “Practical Guide to Estimating.” The updated guide is expected to
be published in December 2012. Following publication of the guide, FHWA’s Office of
Infrastructure will send a memorandum to all Division Offices instructing them to conduct
a review of their State’s cost estimating procedures by May 31, 2013. The instructions
will require each Division Office to notify the Office of Infrastructure of results upon
completion of its review. FHWA will utilize this information to ensure that each Division
Office has conducted the reviews in accordance with the memorandum.

Recommendation 4: Develop and implement a plan to make sure controls are in place to
effectively manage remaining unexpended ARRA funds.

Response: Concur in part. In addition to using its existing programmatic controls,
FHWA developed additional controls for Recovery Act implementation to provide an
additional level of assurance that funds were used appropriately. At this juncture, less
than 7 percent of Recovery Act highway funds remain to be expended after completing
over 13,000 Recovery Act projects. The FHWA program and Division Offices, working
with their respective States, will continue to take all necessary actions to facilitate the
completion of Recovery Act work and bring about the timely expenditures of remaining
Recovery Act funds in an effective and efficient manner in accordance with requirements
of the Transparency Act and other related laws, regulations, and policies. The FHWA’s
Office of the Chief Financial Officer developed a weekly report to ensure that Agency
officials are regularly informed of the status of unexpended funds in each State. At this
point, over 93 percent of these funds have already been expended: 3 States have fully
expended their Recovery Act funds; 12 States have exceeded the 99 percent expenditure
level; and 38 States have exceeded the 94 percent mark. In light of this, combined with
our current arsenal of tracking and monitoring tools in place, we do not consider it useful
at this juncture to develop and implement any new plans for further controls relating to the
use of Recovery Act funds. Based on actions completed, and the status of Recovery Act
expenditures, we request OIG close this recommendation.

                                      -- -- -- -- -- -- --

FHWA is proud of its work and that of its State partners in effectively investing Recovery
Act funds in highway and bridge projects and generating tens of thousands of jobs and a
lasting transportation legacy for the traveling public. If you have any questions or
comments regarding this response, please contact David Nicol, Director of Program
Administration, Office of Infrastructure, at 202-366-5530.




Appendix. Agency Comments
